United States Department of Agriculture
Office of Inspector General




U.S. Department of Agriculture
Improper Payments Elimination and
Recovery Act of 2010 Compliance Review
for Fiscal Year 2012




                                          Audit Report 50024-0004-11
                                          March 2013
                                       Improper Payments Elimination and Recovery Act of
                                          2010 Compliance Review for Fiscal Year 2012

                                                      Audit Report 50024-0004-11
What Were OIG’s
Objectives
We performed a required review
of the Department of
Agriculture’s (USDA) fiscal year
2012 Agency Financial Report
(AFR) and accompanying
information to determine            OIG audited USDA to determine whether the
whether the agency was
compliant with the Improper         Department complied with the Improper
Payments Information Act of         Payments Elimination and Recovery Act of
2002, as amended in 2010.           2010 to effectively reduce its improper
What OIG Reviewed                   payments.
To assess USDA’s compliance
with the law, the Office of         What OIG Found
Inspector General (OIG)
reviewed the Improper Payments      OIG determined that USDA did not comply with IPERA for a second
Elimination and Recovery Act of     consecutive year. Although USDA made progress to improve its
2010 (IPERA), related               processes to substantially comply with IPERA, the Department was
information in the fiscal year      not compliant with three of the seven IPERA requirements.
2012 AFR, and supporting            Specifically, USDA and its component agencies did not always report
documentation. We also              sufficient estimates for high-risk programs, report error rates below
interviewed the Office of the       specific thresholds, and meet annual reduction targets. This occurred
Chief Financial Officer (OCFO)      because USDA has not completed actions to assess results and
and component agency officials      achieve compliance. These noncompliances continue to illustrate the
responsible for administering the   risks of improper payments affecting taxpayers, as USDA could have
16 programs and activities          avoided approximately $74 million in improper payments by meeting
susceptible to significant          reduction targets. As required, OIG must report to Congress that
improper payments. For fiscal       USDA did not comply with IPERA. For those programs that did not
year 2012, USDA reported these      comply with IPERA for two consecutive fiscal years, USDA must
programs accounted for an           consult with the Office of Management and Budget to discuss further
estimated $5.5 billion in           actions. In addition, USDA needs to implement further actions to
improper payments.                  improve its risk assessments and reporting accuracy. With
                                    improvements not yet fully implemented, the Department faces an
What OIG Recommends                 increased risk that it may not identify programs that need to annually
                                    report and reduce improper payments. Also, some of USDA’s
USDA should implement               reported actions to prevent and reduce improper payments do not
controls to ensure its actions to   reflect its actual progress.
report and reduce improper
payments meet IPERA                 We briefed USDA officials on our results, and they generally
requirements, and accurately and    concurred with our findings and recommendations. We received
completely reflect USDA’s           OCFO’s written response and accept management decisions, but did
progress.                           not obtain written comments to the report from component agencies
                                    prior to the OMB-mandated report issuance date of March 15, 2013.
                           United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250


DATE:          March 14, 2013

AUDIT
NUMBER:        50024-0004-11

TO:            Jon Holladay                                   Juan Garcia
               Deputy Chief Financial Officer                 Administrator
               Office of the Chief Financial Officer          Farm Service Agency
               ATTN: Kathy Donaldson                          ATTN: Philip Sharp

               Dallas Tonsager                                Audrey Rowe
               Under Secretary                                Administrator
               Rural Development                              Food and Nutrition Service
               ATTN: John Dunsmuir                            ATTN: Mark Porter

               Thomas Tidwell                                 Brandon Willis
               Chief                                          Administrator
               Forest Service                                 Risk Management Agency
               ATTN: Thelma Strong                            ATTN: Michael Hand

               Jason Weller
               Acting Chief
               Natural Resources Conservation Service
               ATTN: Lesia Reed

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       U.S. Department of Agriculture Improper Payments Elimination and Recovery
               Act of 2010 Compliance Review for Fiscal Year 2012.


This report presents the results of the subject audit. We determined that the U.S. Department of
Agriculture (USDA) did not comply with the Improper Payments Elimination and Recovery Act
for a second consecutive year. The Office of the Chief Financial Officer’s (OCFO) written
response to the official draft report, dated March 14, 2013, is included in its entirety at the end of
the report. Excerpts from the response and the Office of Inspector General’s position are
incorporated into the relevant sections of the report. We accept OCFO’s management decisions
for the four recommendations to OCFO. We briefed USDA officials from the component USDA
agencies on our results, and they generally concurred with our findings and recommendations.
Jon Holladay, et al.                                                                         2


However, we did not obtain written comments to the report from USDA’s component agencies
prior to the Office of Management and Budget’s mandated report issuance date of
March 15, 2013. Management responses are pending.

Component agencies, in accordance with Departmental Regulation 1720-1, please furnish a reply
within 60 days, describing the corrective actions taken or planned, and timeframes for
implementing the recommendations. Please note that the regulation requires management
decision to be reached on all recommendations within 6 months from report issuance, and final
action to be taken within 1 year of each management decision to prevent being listed in the
Department’s annual Agency Financial Report. Please follow your internal agency procedures in
forwarding final action correspondence to OCFO.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Background and Objective......................................................................................1
Section 1: USDA Did Not Fully Comply With IPERA for a Second
Consecutive Year......................................................................................................3
   Finding 1: Actions Taken To Achieve Full Compliance With IPERA May
   Take Years To Complete .....................................................................................3
         Recommendation 1 to OCFO .......................................................................7
Section 2: USDA’s Internal Controls Over Risk Assessments and Improper
Payments Reporting.................................................................................................8
   Finding 2: Additional Actions Needed To Strengthen USDA’s Risk
   Assessments ...........................................................................................................8
         Recommendation 2 to OCFO .......................................................................9
   Finding 3: Improper Payments Information in the AFR Was Inaccurate
   and Incomplete....................................................................................................10
         Recommendation 3 to OCFO .....................................................................11
         Recommendation 4 to OCFO .....................................................................12
         Recommendation 5 to FNS .........................................................................12
         Recommendation 6 to FSA/CCC ...............................................................12
         Recommendation 7 to FS ............................................................................12
         Recommendation 8 to NRCS ......................................................................12
         Recommendation 9 to RMA .......................................................................13
         Recommendation 10 to Rural Development .............................................13
Scope and Methodology .........................................................................................14
Abbreviations .........................................................................................................16
Exhibit A: Summary of IPERA Requirements ...................................................17
Exhibit B: USDA’s 16 Programs Susceptible to Significant Improper
Payments .................................................................................................................18
OCFO’s Response ..................................................................................................19
Background and Objective

Background
The U.S. Department of Agriculture (USDA) delivers approximately $144 billion in public
services annually through more than 300 programs. Of the 29 component agencies and offices
that operate these programs, 7 component agencies currently administer “high-risk” programs
that are vulnerable to significant improper payments. USDA estimated in fiscal year 2012 that
these agencies’ 16 total high-risk programs made $5.5 billion in improper payments, a
5.11 percent error rate. The seven agencies affected include the Food and Nutrition Service (FNS),
Farm Service Agency (FSA), Commodity Credit Corporation (CCC), Natural Resources
Conservation Service (NRCS), Rural Development, Forest Service (FS), and Risk Management
Agency (RMA).

In general, an improper payment is any payment that should not have been made or that was
made in an incorrect amount. An improper payment also includes any payment made to an
ineligible recipient, a payment for an ineligible good or service, or a payment for goods or
services not received. In addition, a payment is improper if it lacks sufficient documentation.

The Improper Payments Elimination and Recovery Act of 2010 (IPERA) amended the Improper
Payments Information Act of 2002 (IPIA). IPERA requires agencies to conduct annual risk
assessments to identify programs susceptible to significant improper payments (“high-risk
programs”), and to measure and report improper payment estimates for those high-risk programs
each year.1 IPERA requires agencies to conduct expanded and more rigorous recovery audits to
identify and recapture overpayments and outlines actions that non-compliant agencies must
implement.

IPERA authorizes the Office of Management and Budget (OMB) to issue additional guidance
related to eliminating improper payments, as it is tasked with overseeing the Governmentwide
improper payments reduction effort. IPERA requires the Office of Inspector General (OIG) to
annually determine whether USDA properly reported improper payments. OIG published its first
annual IPERA review on March 14, 2012.2

Specifically, OIG determined if USDA met seven requirements. Generally, an IPERA-
compliant agency is one that has:

    ·   Published an Agency Financial Report (AFR) for the most recent fiscal year and posted
        that report and any accompanying OMB-required materials on the agency website;
    ·   Conducted a program-specific risk assessment for each program or activity;
    ·   Published improper payment estimates for all programs that risk assessments identified as
        at high-risk for improper payments;
    ·   Published programmatic corrective action plans in the AFR;


1
  IPIA, Public Law 107-300 (November 26, 2002); and IPERA, Public Law 111-204 (July 22, 2010). IPERA
considers a program susceptible to significant improper payments if improper payments exceed $10 million and
account for 2.5 percent of program outlays. In addition, programs that do not meet these thresholds may be required,
on a case-by-case basis, to annually report improper payment estimates.
2
  Audit Report 50024-0001-11, Fiscal Year 2011 Improper Payments Elimination and Recovery Act of 2010
Compliance Review (March 14, 2012).


                                                                       AUDIT REPORT 50024-0004-11                 1
    ·   Reported a gross improper payment rate of less than 10 percent for each high-risk
        program in the AFR;
    ·   Published, and has met, annual reduction targets for each measured high-risk program;
        and
    ·   Reported information on its efforts to recapture improper payments.

Exhibit A provides a detailed description of these requirements.
To determine the Department’s compliance, we primarily used data from USDA’s fiscal
year 2012 AFR. The AFR is a document published annually by the Office of the Chief Financial
Officer (OCFO), no later than November 15, to report USDA’s financial data, including
improper payments information. To assist OCFO in meeting reporting requirements, USDA’s
component agencies administering high-risk programs must submit improper payment
information in accordance with OCFO’s guidance. Exhibit B provides a list of USDA’s
16 current high-risk programs.
During our review, OCFO implemented actions to improve its oversight. Specifically, it hired
permanent leadership within the OCFO group responsible for IPERA compliance and reporting.
It also established an improper payment working group, comprised of financial officers and
senior accountable officials. These actions are intended to show positive results for internal
controls over the implementation of IPERA for fiscal year 2013 and beyond.
Objective
Our objective was to determine whether USDA was compliant with IPIA, as amended by IPERA,
for fiscal year 2012.




2       AUDIT REPORT 50024-0004-11
Section 1: USDA Did Not Fully Comply With IPERA for a Second
Consecutive Year

Finding 1: Actions Taken To Achieve Full Compliance With IPERA May
Take Years To Complete
We found that 8 of the 16 USDA high-risk programs did not comply with one or more of the
seven requirements. Specifically, USDA did not: (1) publish sufficient improper payment
estimates for two programs; (2) publish improper payment rates of less than 10 percent for two
programs; and (3) meet the annual reduction targets for six programs. Although the four USDA
component agencies responsible for these programs have initiated actions, some actions were not
completed to assess results and achieve compliance. These non-compliances continue to
illustrate the risks of improper payments affecting taxpayers, as USDA could have avoided
approximately $74 million in improper payments by meeting reduction targets. As required,
OIG must report to Congress that USDA did not comply with IPERA. In addition, for those
programs that did not comply with IPERA for two consecutive fiscal years, USDA must consult
with OMB to discuss further actions.

To comply with IPERA, agencies must have met seven specific requirements, including
published improper payment estimates for all applicable high-risk programs; published a gross
improper payment rate of less than 10 percent for each program; and published and met annual
reduction targets.

Our first annual IPERA review disclosed that USDA was not compliant with four of the seven
specific IPERA requirements. During this second annual review, we determined that USDA
improved its processes to substantially comply with requirements, which reduced the
Department’s non-compliances to three. In addition, USDA’s overall reported error rate fell
from 5.37 percent in fiscal year 2011 to 5.11 percent in fiscal year 2012. However, the
Department needs to complete several actions intended to address previously-identified
deficiencies. With individual programs taking actions that are currently in progress, as outlined
below, we are not making additional recommendations to component agencies for this finding at
this time. However, the Department remains non-compliant in the following respects overall,
and must meet with OMB to discuss funding related to compliance activities for those programs
identified as non-compliant for a second year.

        USDA Did Not Report Sufficient Improper Payment Estimates for All High-Risk
        Programs

        Of the 16 high-risk programs, we found one program did not report a gross estimate and
        another program did not have an adequate sampling methodology to estimate improper
        payments. These programs were FNS’ Child and Adult Care Food Program (CACFP),
        and RMA’s Federal Crop Insurance Corporation Program (FCIC), respectively.3



3
 USDA reported gross estimates for 13 of 16 high-risk programs. OMB did not require an estimate of improper
payments for two programs, FSA’s Loan Deficiency Payments program (LDP) and Milk Income Loss Contract
program (MILC), in fiscal year 2012 because it was not cost effective due to LDP’s low outlays of $100,000, and
MILC’s outlays of $1 million.


                                                                      AUDIT REPORT 50024-0004-11                  3
        For CACFP, the Department again reported only a partial estimate of improper payments.
        This occurred because FNS does not yet have a cost-effective method to estimate
        improper payments for one of the program’s two components, Family Day Care Homes
        Meal Claims. 4

        During our second annual review, FNS officials continued to express difficulties in
        determining a gross estimate for CACFP, which includes over 190,000 participating day
        care homes and centers and varied eligibility requirements for each of the program’s two
        components. FNS reported that it would cost approximately $20 million to conduct a
        national study to estimate improper payments for the entire program, including the Meal
        Claims component. FNS officials stated that, given competing demands for limited
        discretionary appropriations, the budget climate has not been conducive to a request for
        funds to conduct such a study. Rather than again seeking such a significant investment,
        FNS deemed it more prudent to determine the feasibility of developing an estimate of
        improper payments in CACFP through alternative projects. In fiscal year 2012, FNS
        hired a contractor to assess the feasibility of using information from parent recall
        interviews to validate claims that family day care providers submit in order to be
        reimbursed for meals. The assessment was still in process during our audit.

        USDA reported that CACFP would have a gross estimate by the end of fiscal year 2017.
        Because FNS officials provided plans for actions, we do not make any formal
        recommendations for this non-compliance in this report.

        Additionally, not all component agencies based their estimates on adequate information.
        A prior audit reported that RMA’s FCIC sampling methodology to estimate improper
        payments was statistically inadequate because RMA evaluators excluded payments, such
        as premium subsidies and denied claims.5 We recommended that RMA implement a
        more valid statistical sampling method for determining and calculating its rate of
        improper payments that fully meets the requirements of IPIA by including all payments,
        premium subsidies, and denied claims. RMA reported that FCIC improper payments
        were approximately $173 million, a 4.08 percent error rate. However, because of RMA’s
        sampling methods, OIG believes that this estimate may have been understated.

        Because RMA and OIG are working to resolve this recommendation, we do not make
        recommendations related to RMA’s sampling methodology in this report.

        USDA Did Not Report Improper Payment Rates of Less Than 10 Percent For All
        Programs

        For 2 of the 16 high-risk programs, USDA reported improper payment estimates of
        greater than 10 percent. Specifically, FNS’ National School Lunch program (NSLP) and
        School Breakfast program (SBP) reported estimated improper payment percentages of
        15.53 and 25.18, respectively. FNS’ administration of these programs is highly
        decentralized and involves a myriad of Governmental and non-Governmental


4
  USDA reported an estimate based on the Family Day Care Homes Tiering Decisions component only. The Tiering
Decisions component relates to validating reimbursable rate determinations for FNS CACFP providers. The Meal
Claims component relates to verifying the meal counts of the CACFP participants.
5
  Audit Report 05601-11-At, Risk Management Agency Compliance Activities (September 16, 2009).


4      AUDIT REPORT 50024-0004-11
         organizations to provide benefits at approximately 100,000 school meal locations. FNS
         reported that many of these benefit providers simply do not have the capacity to develop
         robust accountability processes. FNS officials stated they are aware of the significant
         improper payment rate in NSLP and SBP, and continue to work with State partners to
         develop initiatives and practices to address this problem. Further, FNS stated that the
         Healthy, Hunger-Free Kids Act of 2010 included new tools and strategies that will help
         reduce errors in NSLP and SBP.6

         Officials with FNS are aware that its baseline for estimates of improper payments may be
         unreliable. FNS developed the current formulas used to estimate improper payments
         rates based on a previous study.7 Since the study examined program figures from school
         year 2005 only and cannot provide confidence levels for other years, we cannot rely on
         estimates projected from this study.

         To update data used to determine FNS current improper payment estimates, FNS hired a
         contractor to conduct a study for school year 2012 during our first annual IPERA review.
         FNS officials believe this school year 2012 study will reflect NSLP and SBP current
         improper payment rates and account for corrective actions implemented since the study
         conducted for school year 2005. FNS officials stated that they expect to obtain the results
         of the study in 2014, and use those results to assess FNS efforts to comply with IPERA’s
         requirement.

         Because FNS officials stated the Healthy, Hunger-Free Kids Act of 2010 will improve
         program delivery and that the study will measure the current impact of improper
         payments in NSLP and SBP, we do not make any formal recommendations in this report
         for this non-compliance.




6
  Congress enacted the Healthy, Hunger-Free Kids Act of 2010, which includes provisions to improve the
management and integrity of child nutrition programs. For instance, the Act (1) increased the frequency of
administrative oversight reviews of NSLP from once every 5 years to once every 3 years; (2) further strengthened
direct certification for school meals by rewarding States for improvement in direct certification rates; (3) provided
alternatives to paper application systems in low-income areas, i.e. on-line application alternatives to the standard
program application process to reduce the number of paper applications that need manual processing; and
(4) established additional review requirements for school districts that demonstrate high levels of administrative
error.
7
  FNS conducted the Access, Participation, Eligibility, and Certification study for its school breakfast and lunch
programs.


                                                                         AUDIT REPORT 50024-0004-11                     5
         USDA Did Not Meet Its Annual Reduction Targets

         Almost half of USDA’s high-risk programs that did not meet reduction targets during our
         first annual IPERA review met their targets during this second review.8 However, six
         programs were non-compliant in meeting their fiscal year 2012 reduction targets.9
         Specifically, these six programs missed their reduction target by an average of
         0.61 percent, which is a decrease from the 1.21 percent reported previously. If these
         programs had met their reduction targets, $74 million in reported improper payments
         could have been avoided.10 Various factors, such as resources and revised sampling
         methods, may have affected agencies’ abilities to meet reduction targets. Because USDA
         has initiated actions toward achieving compliance, we do not have recommendations on
         this non-compliance at this time.11

As in our first annual IPERA review, this review found that the Department did not report the
amount of improper payments it expected to recover outside of recovery auditing (i.e., “recovery
targets”) because of conflicting OMB guidance. In Circular A-123, OMB requires USDA to
report actual improper payments the agency expects to recapture in its required supplemental
information to the financial statements, i.e., the AFR.12 However, the templates in OMB’s
Circular A-136 do not explicitly require an agency to report the amount of improper payments it
expects to recover outside of recovery auditing.13 USDA followed OMB Circular A-136
requirements; and, therefore, did not report these recovery target amounts in the AFR. Because
OMB issued conflicting guidance related to recovery targets, we do not make a recommendation
to USDA on this issue.

Although actions intended to achieve compliance with IPERA are in progress, USDA remains
non-compliant with IPERA overall. Also, we found that some of USDA’s high-risk programs
did not comply with one or more requirements for a second straight year. 14 According to
IPERA, if an agency is non-compliant for two consecutive fiscal years for the same program or
activity, and the Director of OMB determines that additional funding would help the agency
come into compliance, the head of the agency shall obligate additional funding, in an amount
determined by the Director, to intensify compliance efforts. If any programs remain non-
compliant with IPERA for three consecutive years, the program’s officials may be forced to
propose statutory changes necessary to bring the programs into compliance.




8
  Our first annual IPERA report disclosed that 11 of the 16 high-risk programs did not meet their reduction targets.
Reported figures exceeded the targets by an average of 1.21 percent.
9
  Per OMB guidance, each year USDA reports annual reduction targets. Fiscal year 2012 reduction targets were
reported in USDA’s fiscal year 2011 Performance and Accountability Report.
10
   These six programs included FNS’ CACFP, FNS’ SBP, FNS’ Special Supplemental Nutrition Program for
Women, Infants, and Children (WIC); FSA’s Noninsured Assistance Program (NAP), FSA’s Direct and Counter-
Cyclical Payments program (DCP); and Rural Development’s Rental Assistance Program (RAP).
11
   Subsequent to our previous audit, OCFO revised its corrective action plans to require component agencies to
discuss why targets were not met. OCFO also obtained and provided feedback to OMB and component agencies
regarding whether reduction targets were realistic.
12
   OMB Circular A-123, Appendix C, Requirements for Effective Measurement and Remediation of Improper
Payments (April 14, 2011).
13
   OMB Circular A-136, Financial Reporting Requirements (August 3, 2012).
14
   The seven programs that were non-compliant a second consecutive year included FNS’ CACFP, FNS’ NSLP,
FNS’ SBP, FNS’ WIC, FSA’s NAP, RMA’s FCIC program, and Rural Development’s RAP.


6      AUDIT REPORT 50024-0004-11
For non-compliant programs, USDA will need to discuss funding related to compliance activities
with OMB. Because IPERA is an ongoing annual review that requires followup, we recommend
that OCFO document the Department’s discussion with OMB regarding those programs that did
not comply for two consecutive years.

Recommendation 1 to OCFO
Document the Department’s discussion with OMB regarding those programs that did not comply
with IPERA for two consecutive years.

OCFO Response
The Office of the Chief Financial Officer (OCFO) will document OCFO's discussion with OMB
regarding those programs that did not comply with IPERA for two consecutive years. OCFO
will complete this action by September 30, 2013.

OIG Position
We accept management decision for this recommendation.




                                                          AUDIT REPORT 50024-0004-11        7
Section 2: USDA’s Internal Controls Over Risk Assessments and
Improper Payments Reporting

Finding 2: Additional Actions Needed To Strengthen USDA’s Risk
Assessments
Last year, we noted deficiencies in USDA’s risk assessment process and recommended that the
Department enhance its oversight by reviewing some risk assessments to ensure compliance.
This year, we found that USDA’s oversight of program risk assessments continues to be an area
of concern, as we identified issues related to three of the six risk assessments we reviewed. This
occurred partly because other priorities affected OCFO’s ability to fully implement our prior
audit recommendation to enhance OCFO’s oversight, and partly because OCFO needs to further
improve its guidance. As a result, the Department faces an increased risk that it may not identify
programs that need to annually report and reduce improper payments.

All agencies shall institute a systematic method of reviewing all programs and identify programs
susceptible to significant improper payments.15 According to OCFO’s risk assessment guidance,
transaction testing must be a statistically valid random sample to determine the effectiveness of
program design and internal controls in the prevention of improper payments. In addition, the
universe of payments tested must cover a 12-month timeframe and the results must provide a
dollar amount of improper payments and an error rate for the program.16 Federal managers are
responsible for applying the internal control standards consistently to meet objectives and assess
effectiveness.

We non-statistically selected six risk assessments, which included both qualitative and
quantitative assessments. We found that, with improvements to OCFO’s oversight not yet
implemented, two programs with quantitative assessments, National Institute of Food and
Agriculture’s Research and Education Activities, and Agricultural Marketing Service’s
Commodity Purchase Program, did not conduct transaction testing, as OCFO’s guidance
required. Each of these programs did not estimate its improper payments and amounts. In
addition, a third risk assessment, the assessment of Rural Development’s Single Family Housing
Guaranteed loan program, did not disclose important information to evaluate whether the sample
size selected for transaction testing was adequate to justify a low risk determination. This
occurred because OCFO did not provide adequate oversight and instructions related to selecting
sample sizes.

Without appropriate oversight, two programs were able to report their control environment
testing to OCFO, instead of performing transaction testing, as required.17 We concluded that
because the control environment testing was not designed to provide sufficient details in terms of
IPERA, the agencies’ testing results did not provide sufficient details to support a low risk
determination and should not have been used in lieu of the required test of transactions. For


15
   OMB Circular A-123, Appendix C, Requirements for Effective Measurement and Remediation of Improper
Payments (April 14, 2011).
16
   USDA Fiscal Year 2012 Risk Assessment Guidance, Version 8.1 (November 22, 2011)
17
   The National Institute of Food and Agriculture’s Research and Education Activities, and Agricultural Marketing
Service’s Commodity Purchase Program reported their control environment testing in accordance with OMB
Circular A-123, Appendix A, Internal Control over Financial Reporting (December 21, 2004).


8      AUDIT REPORT 50024-0004-11
example, the Agricultural Marketing Service’s program samples did not cover the required
12-month period. Further, without appropriate oversight, an agency was able to report its testing
without sufficient support. After subsequent discussions with Rural Development officials and
our statistician, we were able to validate that Rural Development’s Single Family Housing
Guaranteed Loan program sampling was sufficient to justify its low risk determination.
However, our analysis at Rural Development demonstrated that the Department’s risk
assessment guidance for transaction testing needs improvement. Specifically, OCFO’s guidance
related to tests of transactions did not provide adequate information about sample sizes.

The intent of IPERA is to ensure that agencies are not only reporting their improper payment
estimates, but aggressively determining areas that need improvement. In order to identify areas
for improvement, agencies should adequately test their transactions when required. The
Department plans to implement our prior audit recommendation by the end of fiscal year 2013.
When USDA implements our prior audit recommendation to enhance its oversight of its risk
assessment review process, OCFO’s enhanced oversight should improve the Department’s risk
assessments used to determine a program’s or activity’s susceptibility to improper payments.
OCFO can also improve reporting by revising its risk assessment guidance for testing
transactions to ensure component agencies’ sample sizes are adequate to support their level of
risk determinations. OCFO officials agreed with our conclusions.

Recommendation 2 to OCFO
Revise the Department’s risk assessment guidance for testing transactions to ensure component
agencies’ sample sizes are adequate to support their level of risk determinations.

OCFO Response
OCFO will revise the Department's risk assessment guidance to instruct agencies on how to
determine an adequate sample size to test transactions. OCFO will complete this action by
October 31, 2013.

OIG Position
We accept management decision for this recommendation.




                                                            AUDIT REPORT 50024-0004-11            9
Finding 3: Improper Payments Information in the AFR Was Inaccurate and
Incomplete
For 7 of the 16 high-risk programs, we found areas where some reported information related to
improper payments was not properly supported, or was incomplete.18 We found similar
occurrences during our first annual IPERA review.19 Although USDA implemented a quality
review process to reduce discrepancies between the AFR and supporting documentation, the
process did not, for instance, produce an audit trail, consistently reference accurate timeframes,
and ensure that the Department and its component agencies review information for accuracy.
OCFO officials acknowledged that the quality of improper payment information was affected by
delayed guidance from OCFO to the component agencies and inadequate reviews by the
Department and its agencies. In addition, component agencies did not provide necessary
information. As a result, we continue to see that some of USDA’s reported actions to prevent
and reduce improper payments do not reflect its actual progress.

OMB requires agencies to summarize their progress in preventing and reducing improper
payments, and include the detailed portion of the reporting as accompanying information in their
AFRs. USDA requires its component agencies to submit improper payment information to
OCFO for inclusion in the AFR. Federal managers are responsible for applying the internal
control standards consistently to meet objectives and assess effectiveness. Finally, OMB
requires OIGs to evaluate the accuracy and completeness of agency reporting. 20

Our first annual review identified discrepancies between supporting documents and USDA’s
AFR for 12 high-risk programs. Subsequently, OCFO took steps to implement a review process
for the Department and its agencies. However, our second review of improper payments
information continued to find several discrepancies, specifically in the supplemental improper
payments sections.

For example:

     ·   The AFR reported that verification of eligibility and certain Internal Revenue Service
         requirements were regulatory barriers for NRCS, though the supporting documentation
         stated NRCS had no barriers, and NRCS officials confirmed there were none.

     ·   The AFR did not report the Rental Assistance Program’s (RAP) action to enhance its
         assessment of property managers’ performance, though RAP’s corrective action plan
         included this action, and noted that inadequate documentation from property managers
         was one of the reasons why the program’s reduction target was not met.

OCFO officials acknowledged that there were discrepancies. As a corrective action, OCFO
officials stated they will implement a formal review process for the Management’s Discussion
and Analysis and supplemental improper payments section of the AFR that requires signatures

18
   These 7 programs included FNS’ WIC, FNS’ CACFP; FSA’s DCP, FSA’s Conservation Reserve Program;
RMA’s FCIC program; NRCS’ Farm Security and Rural Investment Act programs; and Rural Development’s RAP.
19
   Audit Report 50024-0001-11, USDA Fiscal Year 2011 Improper Payments Elimination and Recovery Act of 2010
Compliance Review (March 14, 2012).
20
   We reviewed OMB Circular A-123, Appendix C, Requirements for Effective Measurement and Remediation of
Improper Payments (M-11-16, April 14, 2011); OCFO USDA Fiscal Year 2012 Corrective Action Plan Guidance
(July 2012); and OMB Circular A-123, Management’s Responsibility for Internal Control (December 21, 2004).


10       AUDIT REPORT 50024-0004-11
from all the reviewers. In addition, OCFO officials stated they will provide the corrective action
plan guidance to the agencies earlier and perform quicker follow up with the agencies that have
missing and/or incomplete information.

In addition to these discrepancies, we found that the table of overpayments recaptured outside of
recovery auditing that USDA presented in the AFR was inaccurate and/or incomplete, and that,
overall, USDA could improve its reporting of these recoveries. Each component agency was
required to report the amount of improper payments recovered in its programs, but we found that
some agencies did not report them to OCFO. For example, FNS did not report its recovered
amounts, though it has a history of reporting recovery amounts for the Supplemental Nutrition
Assistance Program. Additionally, the AFR stated that the overpayments recaptured were for the
entire fiscal year. However, we found that the information only included the first three quarters
of fiscal year 2012 because USDA finalized the supplemental information in the AFR prior to
the end of the fiscal year.

As a corrective action, OCFO officials stated that reported overpayments recaptured outside of
the recovery auditing table will represent the fourth quarter of the previous fiscal year and the
first three quarters of the current fiscal year.21 In addition, OCFO officials stated that they will
report the correct recovery timeframe referenced in the overpayments recaptured outside of
recovery auditing table in subsequent AFRs.

Accurate reporting is indispensable to convey to the readers the actual progress made by USDA
to prevent improper payments. OCFO mentioned that it would revise procedures requiring
component agencies certify that they have reviewed the AFR and concur with the information as
presented. We agree with OCFO’s action, and it should be incorporated within a comprehensive
review process. Furthermore, component agencies should implement a process to ensure their
programs’ improper payments information reported to Congress, OMB, and the public are
accurate and reflective of the component agencies’ progress.

Recommendation 3 to OCFO

Revise the Department’s current quality review process to ensure that it includes a documented
strategy with well-defined processes that produce the audit trail needed for verifying the
accuracy and completeness of information in the IPERA section of the required supplemental
information in the financial statements.

OCFO Response

OCFO will revise its quality review process to include documented well-defined processes so
that the information in the IPERA section of the AFR can be substantiated. OCFO will complete
this action by August 31, 2013.

OIG Position

We accept management decision for this recommendation.


21
   For example, the fiscal year 2013 AFR’s overpayments recaptured outside of recovery auditing table will include
fiscal year 2012 fourth quarter recoveries and the first three quarters of fiscal year 2013.


                                                                     AUDIT REPORT 50024-0004-11                11
Recommendation 4 to OCFO
Accurately disclose in USDA’s AFR the timeframe referenced in the overpayments recaptured
outside of recovery auditing table.

OCFO Response

OCFO will provide the timeframe for the information on the overpayments recaptured outside of
recovery auditing table.

OIG Position

We accept management decision for this recommendation.

Recommendation 5 to FNS

Develop and implement a process to ensure FNS information in USDA’s AFR is accurate and
complete.

FNS Response

FNS’ response is pending.

Recommendation 6 to FSA/CCC

Develop and implement a process to ensure FSA/CCC information in USDA’s AFR is accurate
and complete.

FSA/CCC Response

FSA/CCC’s response is pending.

Recommendation 7 to FS

Develop and implement a process to ensure FS information in USDA’s AFR is accurate and
complete.

FS Response

FS’ response is pending.

Recommendation 8 to NRCS

Develop and implement a process to ensure NRCS information in USDA’s AFR is accurate and
complete.

NRCS Response


12     AUDIT REPORT 50024-0004-11
NRCS’ response is pending.

Recommendation 9 to RMA

Develop and implement a process to ensure RMA information in USDA’s AFR is accurate and
complete.

RMA Response
RMA’s response is pending.

Recommendation 10 to Rural Development

Develop and implement a process to ensure Rural Development information in USDA’s AFR is
accurate and complete.

Rural Development Response
Rural Development response is pending.




                                                     AUDIT REPORT 50024-0004-11       13
Scope and Methodology

Our audit focused on improper payments information reported in USDA’s fiscal year 2012 AFR
and additional supporting documentation. We performed our review at OCFO Headquarters in
Washington, D.C. We commenced fieldwork in December 2012 and completed our fieldwork in
February 2013.

We interviewed OCFO officials and USDA component agencies’ management, supervisory, and
staff personnel involved with the 16 programs susceptible to significant improper payments. We
obtained and reviewed all applicable laws, rules, and regulations pertaining to improper
payments, as well as OCFO’s guidance, policies, and procedures. We also reviewed each
program’s plans describing how sampling was performed, estimates calculated, and completed or
proposed corrective actions to reduce improper payments in the future.

To accomplish our objective, we performed the following audit steps to assess USDA’s
compliance with the seven IPERA requirements as follows:

       Published an AFR for the Most Recent Fiscal Year and Posted that Report
       on the Agency Website

       We obtained and reviewed the fiscal year 2012 AFR. We also browsed USDA’s
       website to verify that the AFR was posted on the internet.

       Conducted a Program-Specific Risk Assessment for Each Program or Activity

       We non-statistically selected six programs, based on program outlays, results from prior
       audits, and the type of risk assessment required. Annually, OCFO selects which risk
       assessment to perform for a particular program, based on its stage in the 3-year cycle.

       The risk assessments range from completing a one-page form certifying that events
       affecting a program have not changed, to completing a full risk assessment, including a
       test of transactions. Our six selected programs captured various types of risk
       assessments. We reviewed these assessments to determine whether the level of risk
       determination was reasonable.

       Published Improper Payment Estimates for All Programs Identified as
       High-Risk for Improper Payments Under Its Risk Assessment

       We reviewed the improper payment sampling results table in Section 3, Other
       Accompanying Information, of the AFR to identify which programs reported “NA”
       (not available).

       Published Programmatic Corrective Action Plans in the AFR

       We reviewed the corrective actions and additional information reported in the AFR to
       determine whether USDA complied with OMB guidance. We also reviewed each high-
       risk program’s detailed corrective action plan submitted to OCFO to verify that the
       information in the AFR was accurate and supported.

14     AUDIT REPORT 50024-0004-11
    Published, and Has Met, Annual Reduction Targets for Each Program Assessed to
    Be at Risk and Measured for Improper Payments

    We reviewed the improper payments reduction outlook table in Section 3 of the fiscal
    year 2012 AFR and compared each program’s reduction target to the actual results
    listed in the improper payment sampling results table in Section 3 of the fiscal
    year 2012 AFR.

    Reported a Gross Improper Payment Rate of Less Than 10 Percent for Each
    High-Risk Program and Published in the AFR

    We reviewed the improper payment sampling results table in Section 3 of the fiscal
    year 2012 AFR to identify which programs did not report estimates less than
    10 percent.

    Reported Information on Its Efforts to Recapture Improper Payments

    We reviewed the recovery auditing and overpayments recaptured outside of recovery
    auditing information in Section 3 of the fiscal year 2012 AFR to verify that USDA
    discussed its recovery efforts.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.




                                                       AUDIT REPORT 50024-0004-11            15
Abbreviations

AFR ............................ Agency Financial Report
CACFP ........................ Child and Adult Care Food Program
CAP............................. Corrective Action Plan
CCC............................. Commodity Credit Corporation
CRP ............................. Conservation Reserve Program
DCP............................. Direct and Counter-Cyclical Payments
FCIC............................ Federal Crop Insurance Corporation
FNS ............................. Food and Nutrition Service
FS ................................ Forest Service
FSA ............................. Farm Service Agency
FSRI ............................ Farm Security and Rural Investment Act Programs
IPERA ......................... Improper Payments Elimination and Recovery Act of 2010
IPIA ............................. Improper Payments Information Act of 2002
LDP ............................. Loan Deficiency Payments
MAL............................ Marketing Assistance Loan Program
MDP ............................ Miscellaneous Disaster Programs
MILC........................... Milk Income Loss Contract Program
NAP............................. Noninsured Assistance Program
NRCS .......................... Natural Resources Conservation Service
NSLP ........................... National School Lunch Program
OCFO .......................... Office of the Chief Financial Officer
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
RAP............................. Rental Assistance Program
RMA........................... Risk Management Agency
SBP............................. School Breakfast Program
SFH ............................. Single Family Housing
SNAP .......................... Supplemental Nutrition Assistance Program
USDA.......................... Department of Agriculture
WFSM ......................... Wildland Fire Suppression Management
WIC ............................. Special Supplemental Nutrition Program for Women, Infants, and
                                   Children




16      AUDIT REPORT 50024-0004-11
Exhibit A: Summary of IPERA Requirements
Exhibit A provides a detailed description of the seven requirements agencies must meet
to comply with IPERA.
                                             OIG Fiscal
                                              Year 2012
         Description of IPERA               Compliance          Reason for OIG Compliance
             Requirements                 Determination.                   Decision
                                             Did USDA
                                              Comply?
   Published an Agency Financial                        The Department of Agriculture
   Report (AFR) for the most recent                     (USDA) published and posted an
   fiscal year and posted that report                   AFR with accompanying materials on
   and any accompanying Office of           YES         the agency’s website.
   Management and Budget (OMB)
   required materials on the agency
   website.

                                                        OMB approved USDA’s 3-year risk
   Conducted a program specific risk
                                                        assessment cycle. The Office of the
   assessment for each program or
                                                        Chief Financial Officer provided the
   activity.
                                                        Office of Inspector General its risk
                                            YES
                                                        assessment guidance inventory of
                                                        programs and activities.
   Published improper payment
   estimates for all high-risk programs      NO        Discussed in Finding 1
   and activities.

   Published programmatic corrective        YES        USDA published its corrective action
   action plans in the AFR.                            plans.

  Published, and has met, annual                        Discussed in Finding 1
  reduction targets for each program         NO
  assessed to be at risk and measured
  for improper payments.
                                                       Discussed in Finding 1
   Reported a gross improper payment
   rate of less than 10 percent for each
   program and activity for which an         NO
   improper payment estimate was
   obtained and published in the AFR.
   Reported information on its efforts to               USDA reported its efforts to recapture
   recapture improper payments.             YES         improper payments in Section 3 of the
                                                        AFR.




                                                      AUDIT REPORT 50024-0004-11         17
  Exhibit B: USDA’s 16 Programs Susceptible to Significant
  Improper Payments
  Exhibit B provides a list of USDA’s 16 current high-risk programs or program categories.
High-Risk Program                                                                                      USDA Component
                                                                                                           Agency
1. Supplemental Nutrition Assistance Program (SNAP)
   SNAP provides low income families benefits to purchase food from approved retailers.
2. National School Lunch Program (NSLP)
   NSLP provides cash subsidies and donated foods from USDA for each meal schools serve.
3. School Breakfast Program (SBP)
   SBP is a federally assisted meal program where participating school districts receive cash
   subsidies for each meal they serve.                                                                  Food and Nutrition
4. Child and Adult Care Food Program (CACFP)                                                              Service (FNS)
   Provides nutritious meals to participants in day care facilities, such as child care centers, day
   care homes, and adult day care centers.
5. Special Supplemental Nutrition Program for Women, Infants, and Children
   (WIC)
   WIC provides supplemental foods and other health services to low-income participating
   women; and children up to the age of 5 years.
6. Federal Crop Insurance Corporation (FCIC) Program Fund                                               Risk Management
   FCIC provides insurance and risk management strategies to American producers.                         Agency (RMA)
7. Milk Income Loss Contract Program (MILC)
   MILC compensates dairy producers when domestic milk prices fall below a specified level.
8. Loan Deficiency Payments (LDP)
   LDP is available to eligible participants who do not want to participate in the MAL program.
9. Direct and Counter-Cyclical Payments (DCP)
   DCP provides payments based on yields or market prices to eligible producers on farms.
10. Conservation Reserve Program (CRP)                                                                   Farm Service
   CRP is a voluntary program available to agricultural producers to help them use                      Agency (FSA)/
   environmentally sensitive land for conservation benefits.
                                                                                                       Commodity Credit
11. Miscellaneous Disaster Programs (MDP)
   MDP provides assistance through various programs to participants when there are disasters.
                                                                                                       Corporation (CCC)
12. Noninsured Assistance Program (NAP)
   NAP provides financial assistance to producers of noninsurable crops when low yields, loss
   of inventory, or prevented planting occur due to a natural disaster.
13. Marketing Assistance Loan Program (MAL)
   MAL provides an influx of cash when market prices are low, which allows the producer to
   delay the sale of the commodity until more favorable market conditions emerge.
14. Rental Assistance Program (RAP)
   RAP provides an additional source of support for households with incomes too low to pay the         Rural Development
   basic rent from their own resources.
15. Farm Security and Rural Investment Act programs (FSRI)                                              Natural Resources
   FSRI programs provide products and services that enable people to be good stewards of the           Conservation Service
   Nation’s soil, water, and related natural resources on non-Federal lands.                                (NRCS)
16. Wildland Fire Suppression Management (WFSM)
   WFSM protects life, property, and natural resources on acres of National Forest System and          Forest Service (FS)
   State and private lands through fee or reciprocal protection agreements.




  18        AUDIT REPORT 50024-0004-11
OCFO’s Response




     OFFICE OF THE CHIEF FINANCIAL
               OFFICER’S
       RESPONSE TO AUDIT REPORT




                       AUDIT REPORT 50024-0004-11   19
United States
Department of
Agriculture

Office of the Chief                                                                          March 14, 2013
Financial Officer

1400 Independence
Avenue, SW

Washington, D.C.
20250                 TO:           Tracy A. LaPoint
                                    Deputy Assistant Inspector General

                      FROM:         Jon M. Holladay                                          -S- Jon M. Holladay
                                    Deputy Chief Financial Officer

                      SUBJECT:      Management Response to Improper Payments Elimination and Recovery Act of
                                    2010 Compliance Review for Fiscal Year 2012, Audit No. 50024-0004-11

                      This responds to your request for management’s response to the Draft audit
                      recommendations in Audit Report No. 50024-0004-11.

                      If you have any questions or need additional information, please contact our office at
                      (202) 720-5539 or have a member of your staff contact Kathy Donaldson at
                      (202) 720-1893.




                                                An Equal Opportunity Provider and Employer
               Improper Payments Elimination and Recovery Act of 2010,
                  Fiscal Year 2012 Report, Audit No. 50024-0004-11


Recommendation 1

Document the Department’s discussion with Office of Management and Budget (OMB)
regarding those programs that did not comply with Improper Payments Elimination and
Recovery Act of 2010 (IPERA) for two consecutive years.

Management Response: The Office of the Chief Financial Officer (OCFO) will document
OCFO’s discussion with OMB regarding those programs that did not comply with IPERA for
two consecutive years.

Date Corrective Action will be Completed: September 30, 2013

Responsible Organization: Fiscal Policy Division (FPD), OCFO


Recommendation 2

Revise the Department’s risk assessment guidance for testing transactions to ensure
component agencies’ sample sizes are adequate to support their level of risk determinations.

Management Response: OCFO will revise the Department’s risk assessment guidance to
instruct agencies on how to determine an adequate sample size to test transactions.

Date Corrective Action will be Completed: October 31, 2013

Responsible Organization: Fiscal Policy Division (FPD), OCFO


Recommendation 3

Revise the Department’s current quality review process to ensure that it includes a
documented strategy with well-defined processes that produces the audit trail needed for
verifying the accuracy and completeness of information in the IPERA section of the required
supplemental information in the financial statements.

Management Response: OCFO will revise its quality review process to include documented
well-defined processes so that the information in the IPERA section of the Annual Financial
Report (AFR) can be substantiated.

Date Corrective Action will be Completed: August 31, 2013

Responsible Organization: FPD, OCFO




                                   An Equal Opportunity Provider and Employer
              Improper Payments Elimination and Recovery Act of 2010,
                 Fiscal Year 2012 Report, Audit No. 50024-0004-11


Recommendation 4

Accurately disclose in the Department’s AFR the timeframe referenced in the overpayments
recaptured outside of recovery auditing table.

Management Response: OCFO will provide the timeframe for the information on the
overpayments recaptured outside of recovery auditing table.

Date Corrective Action will be Completed: November 15, 2013

Responsible Organization: FPD, OCFO
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
